No.

IN THE
SUPREME COURT OF THE UNITED STATES
./

RICHARD- BOYLE

— PETITIONER

(Your Name)

VS.
UNITED STATES OF AMERICA

— RESPONDENT(S)

PROOF OF SERVICE

I,

RICHARD BOYLE
AUGUST 1 26

—-------------------- , do swear or declare that on this date,
, 20li_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
ROBERT J. LIVERMORE ASST.

UNITED STATES ATTORNEY

615 CHESTNUT STREET

SUITE 1250

PHILADELPHIA, PA 19106

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

AUGUST 26

,20^1
u

(Signature)

DECLA"R"ATrON'PURSUANT-TO-SUPREME-COURJ-RULE_29.2

Petitioner, RICHARD BOYLE, D.O.C. # HR8086, currently
incarcerated at: SCI-PHOENIX, P.0. BOX 244, 1200 MOKYCHIK DRIVE,
COLLEGEVILLE, PA 19426, affirms and declares the following:
A petition for a writ of certiorari, the appendix, and
motion to proceed in forma pauperis was deposited in the
institutional mail system on, or before, the last day for filing
the petition, first-class postage prepaid.

Date of Deposit:

August 26, 2021

Recipients:

Office of the Clerk
Supreme Court of the United States
Washington, D.C. 20543

Robert J. Livermore
Assistant United States Attorney
615 Chestnut Street
Suite 1250
Philadelphia, PA 19106
I declare under penalty of perjury, in compliance with 28
U.S.C. §1746, that the foregoing is true and correct.

Executed on: August 26, 2021
Richard Boyle

